AFFIRM; Opinion Filed December 7, 2018.
In The
Court of Appeals
Fifth District of Texas at Dallas
__________________
No. 05-17-01334-CV
__________________
DR. EMMANUEL E. UBINAS-BRACHE, MD,
Appellant
V.
SURGERY CENTER OF TEXAS, LP,
Appellee
__________________
On Appeal from the 193rd Judicial District Court
Dallas County, Texas
Trial Court Cause No. DC-17-14588
__________________
MEMORANDUM OPINION
Before Justices Francis, Stoddart, and Schenck
Opinion by Justice Schenck
Dr. Emmanuel E. Ubinas-Brache appeals the
trial court’s summary judgment on his breach of
contract claim against appellee Surgery Center of
Texas, LP (“Surgery Center”). In his first issue, Dr.
Ubinas 1 argues the trial court abused its discretion by
implicitly denying his motion to continue the
In his brief, appellant refers to himself as “Dr. Ubinas.” We will
do the same.

1

1a

summary judgment hearing. In his second issue, Dr.
Ubinas urges Surgery Center breached its contract
with him by requiring him to perform under the
contract in a manner he alleges violates federal law.
In his third issue, he asserts that a partner to a
partnership agreement that allows termination
without cause cannot be terminated for an illegal
reason. We affirm the trial court’s judgment. Because
all issues are settled in law, we issue this
memorandum opinion. TEX. R. APP. P. 47.4.
BACKGROUND
Emmanuel Ubinas is a medical doctor
specializing in plastic, hand, and craniomaxillofacial
surgery. Surgery Center owns and operates an
ambulatory surgery center (“ASC”). In October 2010,
Dr. Ubinas contributed $400,000 to become a
physician limited partner in Surgery Center pursuant
to the partnership agreement (“Agreement”), which,
among other provisions, states that a partner (1) must
derive at least one-third of his medical practice
income from the performance of procedures in ASCs
(one-third rule) and (2) may be terminated “for any
reason, or no reason.” From 2011 through 2014, Dr.
Ubinas performed fifty-seven to sixty-five ASC
procedures at Surgery Center’s facility each year. 2 In
2015, the number of ASC procedures Dr. Ubinas
performed dropped to thirty-seven, but he still
fulfilled the Agreement’s one-third requirement. That
same year, two board members of Surgery Center’s
2 Dr. Ubinas testified in an affidavit that “[i]n 2011, I performed
63 cases at SCOT [Surgery Center’s facility]; in 2012 I performed
57 cases at SCOT; in 2013, I performed 65 cases at SCOT; in
2014, I performed 63 cases at SCOT . . . .”

2a

general partner told Dr. Ubinas that he needed to
perform more procedures at their facility and one of
them threatened his partnership would be terminated
if he did not do so. On September 2, 2015, Dr. Ubinas
was notified that other partners determined an
Adverse Terminating Event under the Agreement
had occurred, his partnership was terminated, and
the amount determined to be owed to Dr. Ubinas for
his partnership interest was $100. 3
On December 7, 2016, Dr. Ubinas sued Surgery
Center for breach of contract, urging Surgery Center
violated a federal anti-kickback statute by requiring
him to originate procedures at its facility in excess of
the Agreement’s one-third rule. The next month,
Surgery Center counterclaimed for (1) breach of
contract, (2) a declaratory judgment that Dr. Ubinas
was adversely terminated consistent with the
Agreement and Surgery Center owed no further
payment to him, and (3) attorney’s fees.
On March 1, 2017, Surgery Center filed a
motion for traditional partial summary judgment,
requesting dismissal of Dr. Ubinas’s claim for breach
of contract and grant of declaratory judgment. Dr.
Ubinas filed a motion for continuance and a response
to Surgery Center’s motion for summary judgment,
3 The Agreement provides for both a “Terminating Event” and
an “Adverse Terminating Event.” In the event of the former, the
partnership would have the right to purchase the terminated
partner’s interest for an amount equal to the fair market value
of that interest. In the event of the latter, as here, the amount to
be paid by the partnership would be limited to the terminated
partner’s initial contribution less the aggregate amount of any
previous distributions to that terminated partner, but no less
than $100.

3a

complaining of Surgery Center’s lack of responses to
his requests for production, as well as the short length
of time since he filed his petition. The trial court did
not rule on the motion for continuance and, instead,
on April 10, 2017, held a hearing on Surgery Center’s
partial motion for summary judgment. 4 After the
hearing and at the trial court’s request, both Dr.
Ubinas and Surgery Center provided the trial court
with supplemental briefing on illegality as a defense
to a claim for breach of contract and as a breach of the
Agreement. On April 20, 2017, the trial court granted
Surgery Center partial summary judgment on Dr.
Ubinas’s claim for breach of contract, but ruled
against Surgery Center on its motion for summary
judgment on its counterclaim for declaratory
judgment. The trial court later severed Surgery
Center’s remaining counterclaims for breach of
contract and attorney’s fees. Dr. Ubinas appealed.
DISCUSSION
In his first issue, Dr. Ubinas complains that the
trial court abused its discretion by failing to grant his
motion for continuance when Surgery Center sought
summary judgment less than three months after Dr.
Ubinas filed suit and before it produced any
documents. In his motion for continuance, Dr. Ubinas
argued that in order to respond to Surgery Center’s
motion, he needed additional time to conduct
discovery to establish that he was terminated for an
illegal purpose and that Surgery Center thus
The appellate record contains no reporter’s record from this
hearing. After this Court ordered the court reporter to file the
record for this hearing, the court reporter responded with a letter
that she had done a thorough search of her records and was
certain that no record was made of the hearing.

4

4a

breached the Agreement. In his second issue, Dr.
Ubinas urges Surgery Center breached the
Agreement by requiring him to derive more than onethird of his income from performance of ASC
procedures at Surgery Center’s facility in violation of
federal law. In his third issue, Dr. Ubinas asserts that
a partner to a partnership agreement cannot be
terminated for an illegal reason. We begin by
addressing Dr. Ubinas’s second and third issues.
Because summary judgment is a question of
law, a trial court’s summary judgment decision is
reviewed de novo. Learners Online, Inc. v. Dallas
Indep. Sch. Dist., 333 S.W.3d 636, 640 (Tex. App.—
Dallas 2009, no pet.). The standard of review for a
traditional summary judgment motion pursuant to
Texas Rule of Civil Procedure 166a(c) is threefold: (1)
the movant must show there is no genuine issue of
material fact and he is entitled to judgment as a
matter of law; (2) in deciding whether there is a
disputed, material fact issue precluding summary
judgment, the court must take as true evidence
favorable to the nonmovant; and (3) the court must
indulge every reasonable inference from the evidence
in favor of the nonmovant and resolve any doubts in
the nonmovant’s favor. See id. (citing TEX. R. CIV. P.
166a(c)).
Dr. Ubinas maintains that Surgery Center’s
requirement that he perform in excess of the
Agreement’s one-third rule violates the following
federal anti-kickback statute and a related safe
harbor provision:
Whoever knowingly and willfully
solicits
or
receives
any
5a

remuneration
(including
any
kickback, bribe, or rebate) directly
or indirectly, overtly or covertly, in
cash or in kind—
in return for referring an
individual to a person for the
furnishing or arranging for the
furnishing of any item or service for
which payment may be made in
whole or in part under a Federal
health care program, . . .
....
shall be guilty of a felony and upon
conviction thereof, shall be fined
not more than $100,000 or
imprisoned for not more than 10
years, or both.
42 U.S.C. § 1320a-7b(b)(1) (anti-kickback statute).
The following payment practices
shall not be treated as a criminal
offense under section 1128B of the
Act and shall not serve as the basis
for an exclusion:
....
Ambulatory surgical centers.
....
At least one-third of each physician
investor’s medical practice income
from all sources for the previous
fiscal year or previous 12-month
period must be derived from the
6a

physician’s
performance
procedures . . . .

of

42 C.F.R. § 1001.952(r) (exceptions to anti-kickback
statute). Dr. Ubinas points out that the one-third rule
of the Agreement mirrors the language of the
exception to the anti-kickback statute and argues
that any requirement that he perform more than onethird of his procedures in ASCs, in excess of the
Agreement’s one-third requirement, would exceed the
exception and thus violate the anti-kickback statute. 5
Dr. Ubinas asserts that, by requiring him (and
terminating him for his failure) to perform under the
Agreement in a manner that violates the law, Surgery
Center breached the Agreement. In his brief, Dr.
Ubinas emphasizes that he does not assert illegality
as a defense or ground to invalidate the Agreement,
nor does he urge that the Agreement was illegal on its
face or incapable of being performed in a legal
manner.
What Dr. Ubinas thus urges this Court to
conclude, as a matter of law, is that a party breaches
a contract by requiring (and terminating for failure to
provide) performance that violates a law. We decline
to do so. Although Dr. Ubinas specifically declines to
assert illegality in performance of a contract as a
defense, that is exactly how Texas courts address
5 We emphasize here that Dr. Ubinas is only pursuing a claim
for breach of contract, not a claim under the anti-kickback
statute, which does not provide any right for a private cause of
action. See Rzayeva v. United States, 492 F.Supp.2d 60, 78 (D.
Conn. 2007) (“No private cause of action exists under the federal
health care fraud statute, 42 U.S.C. § 1320a-7b; only the federal
government may bring lawsuits for the recovery of loss caused
by alleged Medicare fraud . . . .”).

7a

illegality in performance of a contract. See Leibovitz
v. Sequoia Real Estate Holdings, L.P., 465 S.W.3d
331, 348 (Tex. App.—Dallas 2015, no pet.) (holding
contract that could be performed in legal manner will
not be declared void unless record establishes its
illegality). Even assuming without deciding that
Surgery Center violated federal law by requiring Dr.
Ubinas to derive more than one-third of his income
from performance of ambulatory surgery center
procedures at Surgery Center’s facility, we conclude
such a requirement was not a breach of the
Agreement. Instead, Surgery Center’s summary
judgment evidence establishes that it properly acted
under the Agreement in that it establishes that (1) the
Agreement provides that an Adverse Terminating
Event occurs when a partner “has been deemed to be
unsuitable to remain a Limited Partner for any
reason, or no reason” and (2) all of the limited
partners other than Dr. Ubinas, as well as the general
partner to the Agreement, “unanimously determined
that an Adverse Terminating Event had occurred
such that [Dr.] Ubinas was no longer suitable to be a
Limited Partner.” We overrule Dr. Ubinas’s second
issue.
In his third issue, Dr. Ubinas further urges
that, as a matter of first impression, this Court should
hold a partner cannot be terminated for an illegal
reason. He relies on an opinion from the Texas
Supreme Court, holding that “public policy . . .
requires a very narrow exception to the employmentat-will doctrine . . . [that] covers only the discharge of
an employee for the sole reason that the employee
refused to perform an illegal act.” Sabine Pilot Serv.,
Inc. v. Hauck, 687 S.W.2d 733, 735 (Tex. 1985). In
8a

Sabine Pilot, the employee was a deckhand employed
at-will who was fired for refusing to follow his
employer’s instructions to pump the bilges of the boat
on which he worked despite (1) a placard posted on
the boat stating it was illegal to pump the bilges into
the water and (2) confirmation from an officer of the
United States Coast Guard that pumping bilges into
the water was illegal. Id. at 734. As pointed out by the
Sabine Pilot court, “this court is free to judicially
amend a judicially created doctrine.” See id. Here, Dr.
Ubinas seeks to judicially amend a partnership
agreement he negotiated and signed as one of five
limited partners and pursuant to which he received
approximately $1,200,000 over five years.
On the facts of this case, we decline to extend
Sabine Pilot to a partner’s termination from a
partnership agreement that explicitly contemplates
and allows termination without cause. See Hancock v.
Express One Int’l, Inc., 800 S.W.2d 634, 636 (Tex.
App.—Dallas 1990, writ denied) (“It is not for an
intermediate appellate court to undertake to enlarge
or extend the grounds for wrongful discharge under
the employment-at-will doctrine.”). We overrule Dr.
Ubinas’s third issue.
As for Dr. Ubinas’s first issue regarding
whether the trial court erred by failing to grant his
request for continuance, his request was premised on
his desire for an opportunity to conduct discovery to
establish that he was terminated for an illegal
purpose and that Surgery Center thus breached the
Agreement. The trial court may order a continuance
of a summary judgment hearing if it appears from the
affidavits of a party opposing the motion that he
cannot for reasons stated, present by affidavit facts
9a

essential to justify his opposition. TEX. R. CIV. P.
166a(g). When reviewing a trial court’s order denying
a motion for continuance, we consider whether the
trial court committed a clear abuse of discretion on a
case-by-case basis. Joe v. Two Thirty Nine Joint
Venture, 145 S.W.3d 150, 161 (Tex. 2004). We
consider the following nonexclusive factors when
deciding whether a trial court abused its discretion in
denying a motion for continuance seeking additional
time to conduct discovery: the length of time the case
has been on file, the materiality and purpose of the
discovery sought, and whether the party seeking the
continuance has exercised due diligence to obtain the
discovery sought. Id. Because we have decided
against Dr. Ubinas’s theory of breach, we conclude the
trial court did not abuse its discretion in failing to
grant Dr. Ubinas’s request for a continuance. See id.
A continuance would not have produced evidence to
defeat Surgery Center’s motion.
We overrule Dr. Ubinas’s first issue.
CONCLUSION
We affirm the trial court’s judgment.

171334F.P05

/David J. Schenck/
DAVID J. SCHENCK
JUSTICE

10a

Court of Appeals
Fifth District of Texas at Dallas
JUDGMENT
No. 05-17-01334-CV
DR. EMMANUEL E.
UBINAS-BRACHE,
MD, Appellant
v.
SURGERY CENTER
OF TEXAS, LP,
Appellee

On Appeal from the 193rd
Judicial District Court,
Dallas County, Texas
Trial Court Cause No.
DC-17-14588.
Opinion delivered by
Justice Schenck, Justices
Francis and Stoddart
participating

In accordance with this Court’s opinion of this
date, the judgment of the trial court is AFFIRMED.
It is ORDERED that appellee SURGERY
CENTER OF TEXAS, LP recover its costs of this
appeal from appellant DR. EMMANUEL E. UBINASBRACHE, MD.
2018.

Judgment entered this 7th day of December,

11a

DC-16-15650
EMMANUEL E. UBINASBRACHE, MD,
Plaintiff(s),
v.

In the District Court
of Dallas County
193rd Judicial
District

SURGERY CENTER OF
TEXAS, LP,
Defendant(s).
SUMMARY JUDGMENT
ON APRIL 10, 2017 came to be heard
Defendant’s Motion for Summary Judgment. At the
hearing thereupon, the Court took the matter under
advisement, requesting further briefing on the issue.
Having received the requested briefing, the Court
hereby ORDERS the following:
1.

Plaintiff take nothing on its cause(s) of
action against Defendant.

2.

Defendant take nothing on its
declaratory judgment causes of action
against Plaintiff. See BHP Pet. Co. v.
Millard, 800 S.W.2d 838, 841 (Tex. 1990)
(declaratory relief unavailable when
underlying controversy before the court
in another cause of action).

THEREFORE, THE COURT DISMISSES this
cause with prejudice, with taxable court costs taxed
against the Plaintiff.
12a

SO ORDERED this 20th day of April, 2017
/s/Carl Ginseberg
Carl Ginsberg, District Judge
193rd Judicial District Court

13a

SUPREME COURT OF TEXAS
RE: Case No. 09-0061
COA #: 05-17-01334-CV

DATE: 10/4/2019
TC#: DC-17-14588

STYLE: UBINAS-BRACHE v. SURGERY CTR. OF
TEX.
Today the Supreme Court of Texas denied the
petition for review in the above-referenced case.

14a

IN THE SUPREME COURT OF TEXAS
NO. 19-0061
DR. EMMANUEL E.
§
UBINAS-BRACHE, MD §
v.
§
SURGERY CENTER
§
OF TEXAS, LP
§

Dallas County,
5th District.
October 4, 2019

Petitioner’s motion for rehearing of petition for
review, filed herein in the above numbered and styled
case, having been duly considered, is order, and
hereby is, denied.
**********
I, BLAKE A. HAWTHORNE, Clerk of the
Supreme Court of Texas, do hereby certify that the
above is a true and correct copy of the orders of the
Supreme Court of Texas in the case numbered and
styled as above, as the same appear in the minutes of
said Court under the date shown.
It is further ordered that petitioner, DR.
EMMANUEL E. UBINAS-BRACHE, MD pay all
costs incurred on this petition.
WITNESS my hand and seal of the Supreme
Court of Texas, the City of Austin, this the 22nd day
of November, 2019.
/s/Blake A. Hawthorne
Blake A. Hawthorne, Clerk
By Monica Zamarripa, Deputy
Clerk
15a

